Additional Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution Unit of
the Audit Followup and Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
fax (703) 604-8932 or visit the Inspector General, DoD, home page at
http://www.dodig.osd.mil.

Suggestions for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
Ideas and requests can also be mailed to:

                       OAIG-AUD (ATTN: AFTS Audit Suggestions)
                        Inspector General, Department of Defense
                           400 Army Navy Drive (Room 801)
                               Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
sending an electronic message to Hotline@dodig.osd.mil; or by writing to the Defense
Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and caller
is fully protected.




Acronyms


DoD           Department of Defense
OMB           Office of Management and Budget
UD            University of Delaware
     control structure, including statements on reportable conditions, material weaknesses,
     and controls that provide reasonable assurance that Federal awards are being managed
     in accordance with applicable laws and regulations.


Quality Control Review Results

     In our opinion, the audit performed by KPMG generally meets the applicable guidance
     and regulatory requirements of OMB Circular A-133 and its related Compliance
     Supplement, which incorporate generally accepted auditing standards and Government
     Auditing Standards. However, some problems were identified. The audit contains
     inadequate working paper documentation as described in the following paragraphs.


Material Finding: Working Paper Documentation & Referencing

     KPMG did not provide adequate working paper support for its compliance testing on
     the allowable costs/cost principles requirement. Government Auditing Standards 4.35
     requires auditors to provide documentation in their working papers so that another
     auditor, having no prior connection with the audit, could ascertain from them the
     evidence supporting the significant conclusions and judgments. KPMG documented its
     entire compliance test work related to the allowable costs/cost principles requirement
     on only one page in the audit working papers and did not identify the attributes tested
     for each sample item selected. To perform an adequate allowability assessment of
     sampled transactions, the auditors should determine whether or not the transactions
     tested were properly allowable and reasonable, and that indirect costs had been
     properly charged, if applicable. Only after assessing each transaction in that way,
     should the auditor determine whether or not the entity complied with the allowable
     costs/cost principles requirement. At a minimum, the auditors should have performed
     separate tests on the allowability of each of the 33 items selected. KPMG, however,
     only reached the overall conclusion that all of the transactions were appropriately
     approved and did not refer to the allowability of the selected transactions. We
     therefore do not believe that the documentation was adequate to support its position that
     UD complied with the allowable costs/cost principles requirement. The auditors did
     not provide adequate support for their compliance tests because they made an
     inappropriate judgment about what documentation was necessary to support their
     conclusion. We therefore could not identify the criteria used by KPMG to conclude
     that each of the selected transactions was allowable.

     The KPMG audit working paper files for UD also contained at least three separate
     references to a working paper supporting a sample of Federal award expenditures. The
     references indicated that a working paper documented the results of compliance tests on
     a sample of 25 Federal award expenditures. We could not find the working paper
     referred to in these references or a detailed sample of 25 Federal award expenditures.
     We found only the working paper supporting a sample of 33 Federal award


                                             2
     expenditures, referred to in the previous paragraph. Because of the incorrect
     references, we could not determine whether the references were incorrect or if a
     working paper was actually missing from the file. We therefore could not determine
     whether the proper audit work was performed to support the auditor’s conclusions on
     the compliance with allowable costs/cost principles requirement.


Recommendations

     We recommend that KPMG Peat Marwick:

     (1) Provide our office documentation to support its conclusion that the transactions
     tested for compliance with the allowable costs/cost principles requirement were
     allowable. The documentation should identify the specific attributes tested for each
     sample transaction that supports its overall conclusion regarding allowable costs/cost
     principles requirement compliance.

     (2) Correct the references to the audit compliance test work for the allowable costs/cost
     principles requirement in the existing working papers.


Quality Control Review Objective

     The objective of our quality control review was to ensure that the audit was conducted
     in accordance with applicable standards and meets the auditing requirements of OMB
     Circular A-133. As the Federal cognizant agency for UD, we conducted a quality
     control review of the KPMG audit working papers for its audit of UD. We focused our
     review on the following qualitative aspects of the audit: auditor qualifications,
     independence, due professional care, quality control, planning, supervision, major
     program determinations, and the Schedule of Federal Awards of UD.

     We reviewed the most recent peer review letter, issued November 8, 1996, by Price
     Waterhouse LLP for KPMG. The peer review letter stated that KPMG met the
     objectives of the quality control review standards established by the American Institute
     of Certified Public Accountants and that the standards were being complied with during
     the fiscal year ended March 31, 1996.


Scope and Methodology

     We used a draft of the upcoming 1999 edition of the Uniform Quality Control Guide
     for A-133 Audits (the Guide) to perform our review. The final version of the Guide
     will be approved by the President’s Council on Integrity and Efficiency as guidance for
     performing the quality control review procedures. The Guide is organized by the
     general and fieldwork audit standards and the required elements of a single audit. Our


                                             3
     review was conducted from January 6 through 8, 1999, and covered areas related to the
     financial statements and the research and development program. We did not review
     compliance with requirements related to the other “Type A” programs, as defined by
     OMB Circular A-133. The other Type A programs at UD for FY 1998 were the
     Student Financial Aid program for the Department of Education and the Cooperative
     Extension program for the U.S. Department of Agriculture.


Results of Prior Quality Control Reviews

     Since January 1, 1996, we have performed seven quality control reviews of KPMG.
     We identified conditions resulting in quality control review findings and made
     recommendations at several KPMG locations. We notified the affected offices, and no
     further action is necessary.


Background

     The Inspector General Act of 1978, Public Law 95-452, prescribes the duties and
     responsibilities of that office. In implementing those responsibilities, the Inspectors
     General are required to “take appropriate steps to assure that any work performed by
     non-Federal auditors complies with the standards established by the Comptroller
     General.”

     The Single Audit Act of 1984 (Public Law 98-502) and the Single Audit Act
     Amendments of 1996 are intended to improve the financial management of States, local
     governments, and nonprofit organizations whose total annual expenditures of Federal
     awards are $300,000 or more; establish uniform requirements for audits of Federal
     financial assistance; promote efficient and effective use of audit resources; and ensure
     that Federal departments and agencies rely on and use the audit work done under the
     Act, to the maximum extent practicable.

     The OMB Circular A-133 establishes the Federal audit and reporting requirements for
     nonprofit and educational institutions whose expenditures of Federal awards are or
     exceed $300,000 annually. The Circular provides that an audit made in accordance
     with the Circular shall be in lieu of any financial audit required under individual
     Federal awards. Federal agencies must rely on the audit to the extent that it meets their
     individual needs. The Circular also requires that the cognizant agency obtain or
     conduct quality control reviews of selected audits made by non-Federal auditors and
     provide the results, when appropriate, to other interested organizations. The Circular

     was issued on June 30, 1997, to incorporate the changes in the Single Audit Act
     Amendments of 1996. Its provisions apply to audits of fiscal years beginning after
     June 30, 1996.



                                             4
Discussion of Results

      During our quality control review, we reviewed and took no exception to the working
      papers supporting the following reports prepared by KPMG.

      Independent Auditors’ Report on Basic Financial Statements for the Year Ended
      June 30, 1998. The auditor is required to obtain reasonable assurance about whether
      the financial statements are free of material misstatement. We reviewed the audit
      program and the testing of evidential matter to determine whether testing was
      sufficient, based on an assessment of control risk, to warrant the conclusion reached
      and whether the working papers supported the conclusion.

      Independent Auditors’ Report on Compliance and on Internal Control over
      Financial Reporting Based on an Audit of Financial Statements Performed in
      Accordance with Government Auditing Standards. The auditor is required to assess
      control risk to determine the degree of reliance to place on the internal control
      structure. The auditor must perform tests of controls to evaluate the effectiveness of
      the design and operation of the policies and procedures in preventing or detecting
      material noncompliance, and to review the system for monitoring subrecipients and
      obtaining and acting on subrecipient audit reports. The auditor is also required to
      determine whether UD has complied with laws and regulations that may have a direct
      and material effect on the financial statements. We reviewed the audit program for the
      appropriate procedures, the working paper documentation, and the results of the testing
      of controls.

      During our quality control review, except for the deficiencies related to allowable
      costs/cost principles requirement compliance, we reviewed and took no exception to the
      working papers supporting the following report prepared by KPMG.

      Independent Auditors’ Report on Compliance with Requirements Applicable to
      Each Major Program and Internal Control Compliance in Accordance With OMB
      Circular A-133. The auditor is required to determine whether the recipient has
      complied with laws and regulations that may have a direct and material effect on any of
      its major Federal programs. We reviewed the audit program for the appropriate
      procedures, ensured that the auditors considered each of the 14 requirements included
      in the Compliance Supplement, reviewed the working paper documentation and
      support, and reviewed the compliance tests performed.




                                             5
                                The University of Delaware
                             Fiscal Year Ended June 30, 1998

                                      Distribution List

Office of the Vice Provost for Research
210 Hullihen Hall
University of Delaware
Newark, DE 19716-1551

KPMG Peat Marwick LLP
1201 Market Street
Suite 1400
Wilmington, DE 19801-1806

Commander
Defense Contract Management Command
8725 John J. Kingman Road, Suite 4539
Fort Belvoir, VA 22060-3060

Director, Defense Procurement
Office of the Under Secretary of Defense
 for Acquisition and Technology
3060 Defense Pentagon
Washington, DC 20301-3060

Director, Defense Research and Engineering
Office of the Under Secretary of Defense
 for Acquisition and Technology
3030 Defense Pentagon
Washington, DC 20301-3030

Chief, Office of Naval Research
800 North Quincy Street
Arlington, VA 22217-5660




                                                               Enclosure



                                             7
Evaluation Team Members

This report was prepared by the Financial, Performance, and Single Audits Division,
Office of the Deputy Assistant Inspector General for Audit Policy and Oversight, DoD.

Barbara E. Smolenyak
M. Thomas Heacock
Andrew Katsaros
Janet Stern
Janet C. Johnson




                                      9
